BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief of
Amici Curiae Libertarian National Committee, Green
Party of the United States, Constitution Party, and
Coalition for Free and Open Elections in Support of
Petitioners in 21-226, Libertarian Party of Ohio and
Harold Thomas v. Don Michael Crites, Otto Beatty, Ill,
Dennis Brommer, Catherine A. Cunningham, Natasha
Kaufman, A. Scott Norman, and Charleta B. Tavares,
in Their Official Capacities, were sent via Two Day
Service to the U.S. Supreme Court, and 3 copies were
sent via TwoDay Service and e-mail to the following
parties listed below, this 15th day of September, 2021:
Stuart Banner
UCLA School of Law Supreme Court Clinic
405 Hilgard Ave.
Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu

Counsel for Petitioners
Benjamin Michael Flowers
Ohio Attorney General Dave Yost
30 E. Broad St.
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

William P. Tedards, Jr.
Counsel of Record
1101 30th Street, NW, Suite 500
Washington, DC 20007
(202) 744-1214
BT@tedards.net
Oliver B. Hall
Center for Competitive Democracy
P.O. Box 21090
Washington, DC 20009
(202) 248-9294
oliverhall@competitivedemocracy.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 15, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

S;P-~he,c._

I 6~1 c:b d I

c/!-lc- lJ ~

Notary Public
[seal]

~

